No. 21-159
444444444444444444444444444444444444444444
IN THE

Supreme Court of the United States
____________________

W. CLARK APOSHIAN, Petitioner,
v.
MERRICK B. GARLAND, ATTORNEY GENERAL, ET AL.,
Respondents.
____________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit
____________________
Brief Amicus Curiae of
Gun Owners of America, Gun Owners Fdn.,
Virginia Citizens Defense League, Tennessee
Firearms Association, Grass Roots North
Carolina, Oregon Firearms Federation,
Arizona Citizens Defense League, Heller Fdn.,
and Conservative Legal Def. and Ed. Fund
in Support of Petitioner
____________________
DAVID BROWNE
SPIRO & BROWNE, PLC
6802 Paragon Place
Suite 410
Richmond, VA 23230

ROBERT J. OLSON*
WILLIAM J. OLSON
JEREMIAH L. MORGAN
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
JOHN I. HARRIS, III
SCHULMAN, LEROY &
wjo@mindspring.com
BENNETT P.C.
*Counsel of Record
3310 W. End Ave., #460
Attorneys for Amici Curiae
Nashville, TN 37203
Co-counsel for
September 3, 2021
Amici Curiae
444444444444444444444444444444444444444444

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . ii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . 3
SUMMARY OF ARGUMENT. . . . . . . . . . . . . . . . . . . . . . 5
ARGUMENT
I.

CHEVRON DEFERENCE IS NOT BEING UTILIZED
BY LOWER COURTS AS THIS COURT INTENDED . . 7
A. Chevron Deference Cannot Apply if All
Parties Allege a Lack of Ambiguity . . . . . . . 7
B. The Final Rule Is Entirely Political and
Contradicts All Agency Expertise . . . . . . . . 9

II. COURTS BELOW ARE USING CHEVRON AS A
CRUTCH TO AVOID PROPER JUDICIAL
INTERPRETATION OF STATUTORY LANGUAGE . . 12
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

ii
TABLE OF AUTHORITIES

Page

U.S. CONSTITUTION
Amendment II . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATUTES
26 U.S.C. § 5845(b). . . . . . . . . . . . . . . . . . . . . . . 3, 6, 8
REGULATIONS
83 Fed. Reg. 66514 . . . . . . . . . . . . . . . . . . . . . . . . . . 3
86 Fed. Reg. 27720 . . . . . . . . . . . . . . . . . . . . . . . . . . 7
CASES
Aposhian v. Wilkinson, 989 F.3d 890
(10th Cir. 2021) . . . . . . . . . . . . . . . . . . . . . . . . 14
Atrium Med. Ctr. v. United States HHS,
766 F.3d 560 (6th Cir. 2014) . . . . . . . . . . . . . . 10
Chevron U.S.A., Inc. v. Natural Resources Defense
Council, Inc., 467 U.S. 837 (1984). . . . . 2, passim
Clinton v. City of N.Y., 524 U.S. 417 (1998) . . . . . 11
Guedes v. ATF, 920 F.3d 1 (D.C. Cir. 2019) . . . 8, 13
Guedes v. ATF, 140 S. Ct. 789 (2020) . . . . . . . . . 8, 9
Gutierrez-Brizuela v. Lynch, 834 F.3d 1142
(10th Cir. 2016) . . . . . . . . . . . . . . . . . . . . . . . . 11
Marbury v. Madison, 5 U.S. 137 (1803) . . . . . . . . 12
United States v. Davis,
139 S. Ct. 2319 (2019) . . . . . . . . . . . . . . . . 11, 12
Utility Air Regulatory Group v. EPA,
573 U.S. 302 (2014) . . . . . . . . . . . . . . . . . . . . . 11
Whitman v. United States, 574 U.S. 1003 (2014) . 11

iii
MISCELLANEOUS
Hill, E.W., “How Many Guns are in the United
States: Americans Own between 262 Million and
310 Million Firearms,” Urban Publications
(2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
R. Kethledge, “Ambiguities and Agency Cases:
Reflections After (Almost) Ten Years
on the Bench,” 70 VAND. L. REV.
EN BANC 315 (2017) . . . . . . . . . . . . . . . . . . . . . 13

INTEREST OF THE AMICI CURIAE1
Gun Owners of America, Inc., Virginia Citizens
Defense League, Tennessee Firearms Association,
Grass Roots North Carolina, Oregon Firearms
Federation, and Arizona Citizens Defense League are
nonprofit social welfare organizations, exempt from
federal income tax under Internal Revenue Code
(“IRC”) section 501(c)(4). Gun Owners Foundation,
Heller Foundation, and Conservative Legal Defense
and Education Fund are nonprofit educational and
legal organizations, exempt from federal income tax
under IRC section 501(c)(3).
Amici organizations were established, inter alia,
for the purpose of participating in the public policy
process, including conducting research, and informing
and educating the public on the proper construction of
state and federal constitutions, as well as statutes
related to the rights of citizens, and questions related
to human and civil rights secured by law.
Three of these amici, Gun Owners of America, Gun
Owners Foundation, and Virginia Citizens Defense
League, together with certain individuals brought suit
in the U.S. District Court for the Western District of
Michigan to enjoin the same ATF rulemaking being

1

It is hereby certified that counsel for Petitioner filed a blanket
consent, and counsel for Respondents consented to the filing of
this brief; that counsel of record for all parties received notice of
the intention to file this brief at least 10 days prior to its filing;
that no counsel for a party authored this brief in whole or in part;
and that no person other than these amici curiae, their members,
or their counsel made a monetary contribution to its preparation
or submission.

2
challenged in this case. There, the district court
upheld the regulation, but on March 25, 2021, a
divided panel of the Sixth Circuit reversed and
remanded with an opinion written by Judge Alice M.
Batchelder. Gun Owners of America, Inc. v. Garland,
992 F.3d 446 (6th Cir. 2021). The Sixth Circuit
granted rehearing en banc on June 25, 2021, which is
now being briefed, with oral argument scheduled for
October 20, 2021.
Other amici are state-level nonprofit organizations
which, collectively, have members and supporters
numbering in the hundreds of thousands throughout
the country. These organizations exist in order to
promote and support the right to keep and bear arms
under the Second Amendment and corresponding state
constitutional provisions, as well as to provide and
promote training and education to both the public and
government officials regarding technical and legal
aspects of firearms. Each amici organization has
members and supporters who were affected by the
ATF’s regulation reinterpreting the definition of
“machinegun,” and were deprived of their right to own
bump stocks as a result.
The use of Chevron deference in deciding cases
involving ATF’s interpretation of criminal firearms
statutes is of significance and increasing importance to
the amici organizations, their members, and their
supporters. The members of the amici organizations
have a strong interest in having the Court resolve
these broader questions, given the severe criminal
penalties for violations of federal firearms laws, the
administrative reclassification of lawfully owned

3
firearms and accessories as contraband, and the effects
of the same on the right to keep and bear arms.
STATEMENT OF THE CASE
In January 2019, the Petitioner filed an action in
the U.S. District Court for the District of Utah
seeking, among other remedies, a preliminary
injunction to enjoin enforcement of a regulation
promulgated by the Bureau of Alcohol, Tobacco,
Firearms and Explosives (“ATF”) which reclassified socalled “bump stocks” as “machineguns” in 26 U.S.C. §
5845(b). See Final Rule, Bump-Stock-Type Devices, 83
Fed. Reg. 66514 (Dec. 26, 2018). The district court
denied the preliminary injunction, holding that the
ATF’s interpretation of the statutory language was the
best reading of the statute. Petitioner then filed an
interlocutory appeal in the U.S. Court of Appeals for
the Tenth Circuit, challenging the denial of a
preliminary injunction.
On appeal, a divided panel of the Tenth Circuit
upheld the denial of a preliminary injunction, but
applied and expressly relied upon Chevron deference
without addressing the best meaning of the statutory
language in § 5845(b). The panel majority noted that
the parties themselves were “oddly in agreement” that
Chevron should not apply in deciding the case.
Petition Appendix (“App.”) 12a. Yet panel majority
went on first to conclude that Chevron, rather than
traditional tools of statutory interpretation, should be
used at the outset, announcing the court’s task to
determine merely whether the ATF “‘acted within its
authority’” in promulgating the Final Rule. Id.

4
Having determined that Chevron applied, all aspects
of the panel majority’s opinion were built upon that
assumption. The panel also rejected arguments in
favor of applying the rule of lenity, and that Chevron
should not apply in light of the parties having
disavowed its applicability.
The panel majority ultimately found that the
ATF’s rewriting of the statutory term “single function
of the trigger” into “single pull of the trigger” was a
permissible “interpretation” of the statute, and that
the agency’s conclusion that a bump stock fired
“automatically” was reasonable in light of the panel
majority’s view that this “term ... is ambiguous” — at
least when extracted and considered independently of
its statutory context. App. 25a-33a. The panel
majority reached this conclusion despite the parties
themselves arguing that the statutory language was
unambiguous.
On September 4, 2020, the Tenth Circuit entered
an order granting a petition for review en banc,
indicating that a majority of the active, non-recused
judges wished to rehear the matter. App. 74a. In this
order, the court below went so far as to direct the
parties to address specific questions regarding
Chevron deference, including whether it could be
waived by the government, whether a court “must”
follow it (as a standard of review), whether it is
applicable to statutes having both civil and criminal
implications, and whether the Final Rule is
particularly dependent upon facts within the expertise
of the ATF. App. 75a-76a. After supplemental
briefing, on March 5, 2021, the court below entered an

5
order vacating its prior order granting the petition for
review en banc, and reinstating the panel opinion,
without any explanation from the majority which
reversed its original decision to rehear the matter en
banc. App. 78a. Five judges dissented, strongly
opining, inter alia, that the case should be reheard en
banc given the importance of the issues it raises, and
that the panel decision erred by looking for ambiguity
where none existed in order to justify the application
of Chevron deference. App. 80a.
The Petitioner now seeks a writ of certiorari to the
Tenth Circuit in order to address the questions of
(1) whether courts should defer under Chevron to an
agency interpretation of federal law when the federal
government affirmatively disavows Chevron deference;
(2) whether the Chevron framework applies to statutes
with criminal-law applications; and (3) whether, if a
court determines that a statute with criminal-law
applications is ambiguous, the rule of lenity requires
the court to construe the statute in favor of the
criminal defendant, notwithstanding a contrary
federal agency construction. Petition for Certiorari
(“Pet.”) at i.
SUMMARY OF ARGUMENT
Courts of appeals, including the one below, have
improperly chosen to use Chevron deference to decide
multiple cases involving bump stocks, despite the
parties having argued in each case that the relevant
statutory language is unambiguous, despite the fact
that Congress never gave ATF authority to create new
substantive prohibitions, despite the fact that the

6
statutory prohibition at issue carries stiff criminal
penalties, and despite the principle that a court should
apply traditional tools of statutory interpretation
before resorting to Chevron deference. The court below
failed to fulfill its responsibility to “say what the law
is” in the face of an agency-made regulation which
contradicts both the statutory language and the
agency’s prior interpretations made by apolitical
experts. Instead, the court improvidently deferred to
a wholesale re-writing of the meaning of the term
“machinegun” under § 5845(b), which was a direct
result of a president’s political agenda after a national
tragedy, and not an act of an agency’s subject matter
expertise pursuant to a technical analysis.
This case also raises much broader issues, with
implications far beyond bump stocks, for the hundreds
of thousands of members and supporters of the amici
organizations. The ability of the ATF (or any executive
branch agency) to reinterpret and effectively change
the statutory definitions of entire categories of
firearms puts all members of these organizations —
and all law-abiding firearm owners — in a state of
continuous and ongoing confusion and peril.2 These
issues can already be seen on the horizon, as ATF
moves toward reinterpreting definitions of commonly

2

In 2013, nearly a decade ago, it was estimated that Americans
owned between 262 million and 310 million firearms, of which 28
million were semi-automatic rifles. See E. W. Hill, “How Many
Guns are in the United States: Americans Own between 262
Million and 310 Million Firearms,” Urban Publications, Cleveland
State University (2013). These numbers are generally understood
to have grown substantially since 2013.

7
owned firearms far more numerous than bump stocks.3
ARGUMENT
I.

CHEVRON DEFERENCE IS NOT BEING
UTILIZED BY LOWER COURTS AS THIS
COURT INTENDED.
A. Chevron Deference Cannot Apply if All
Parties Allege a Lack of Ambiguity.

At the foundation of this Court’s landmark
decision in Chevron USA, Inc. v. Natural Resources
Defense Council, Inc., 467 U.S. 837, 865 (1984) is the
directive that, if Congress speaks directly to the
precise matter at issue, that is the end of the inquiry.
Likewise, it should be the end of the inquiry for an
executive branch agency charged with administering
the statute. In other words, if a statutory provision is
unambiguous, then Chevron deference is categorically
inapplicable. Under step one of the two-step analysis
set forth in Chevron, the question whether an agency’s
interpretation is reasonable should never be reached
when there is no ambiguity.
In this case, as in the case brought by certain of
these amici — GOA v. Garland now before the Sixth
Circuit en banc — the government has consistently

3

See, e.g., ATF’s Notice of Proposed Rulemaking issued in May
2021 (86 Fed. Reg. 27720), proposing to reinterpret the very
foundational definitions of what is a “firearm” by drastically
broadening the meaning of the terms “frame” and “receiver” that
have existed for decades.

8
taken the position that the meaning of the term
“machinegun” as defined in 26 U.S.C. § 5845(b) clearly
includes bump stocks and, for that reason, that
Chevron deference is inapplicable. Notwithstanding
its multiple earlier classification letters, in which ATF
determined with equal vigor and conviction that bump
stocks were unambiguously not machineguns, the ATF
is now, if nothing else, quite certain that bump stocks
are machineguns — no deference to its expertise being
required.
Similarly, the Petitioner in the present case, as
well as the plaintiffs-appellants in the other bump
stock cases, have consistently — and in great technical
and linguistic detail — made the argument that the
statutory definition of “machinegun” unambiguously
excludes bump stocks, as the trigger must “function”
for each shot fired when a bump stock is utilized. The
lower courts thus have been left not with situations
calling for clear application of Chevron deference in the
face of indeterminate language, but instead with
language that all parties contend is unambiguous
(albeit for different reasons). One would think that if
the parties have gone to the effort to interpret the
statute they believe is ambiguous, a court at least owes
them a duty to use the traditional tools of statutory
construction to see if one of them is correct.
Yet the result in this case (as well as in a third
bump stock case to reach the courts of appeals, Guedes
v. ATF, 920 F.3d 1 (D.C. Cir. 2019), cert. denied, 140 S.
Ct. 789 (2020)) was that the appellate court adopted
both a methodology and result espoused by neither
side, and in effect deferred to nobody despite invoking

9
and purporting to apply Chevron deference.
Indeed, if the court below truly had been concerned
with deferring to the agency’s expertise with the
statute at issue, then perhaps it should have deferred
to the agency’s conclusion that the statute was clear.
Paradoxically, the approach used by the court below
was exactly the opposite of deference. See Guedes v.
ATF, 140 S. Ct. 789, 790 (2020) (Gorsuch, J.,
statement concerning denial of certiorari) (“courts
must equally respect the Executive’s decision not to
make policy choices in the interpretation of Congress’s
handiwork”).
The use of Chevron deference cannot possibly be
the right approach in a case where the agency litigant
itself expressly alleges, across multiple cases in
multiple circuits addressing precisely the same
subject, that the statutory language is unambiguous
and expressly disavows that its views should receive
deference.
B. The Final Rule Is Entirely Political and
Contradicts All Agency Expertise.
Even if ambiguity did exist and Chevron deference
were applicable, one of the main justifications for
judicial deference to bureaucratic interpretations of
ambiguous statutes is that agencies sometimes are
believed to have specialized “expertise” in highly
“technical” areas of the law.
Chevron at 865
(acknowledging that Congress may deliberately permit
agencies to fill gaps in broader statutory schemes,
owing to their “great expertise” in a particular area);

10
see also Atrium Med. Ctr. v. United States HHS, 766
F.3d 560, 568 (6th Cir. 2014). But, if that is the case,
then the court below would have done far better to
defer to the numerous and repeated technical
classification letters issued by ATF’s Firearms
Technology Branch from 2008 to 2017, all of which
unwaveringly concluded that bump stock devices are
not machineguns under federal law.
Prior to ATF being ordered by the Department of
Justice to reverse its classification of bump stocks, the
agency’s firearms “experts” (and just about everyone
else) recognized that firearms equipped with bump
stocks are not machineguns because they require
“continuous multiple inputs by the user for each
successive shot” in order to operate.4 Then, in early
2018, under political pressure following the October 1,
2017 Las Vegas shooting, President Trump
unilaterally declared that bump stocks should be
machineguns. Turning on a dime, ATF immediately —
with no change to the underlying statutory definition
— began to claim that bump stocks are machineguns,
contradicting the agency’s earlier factual statements
by now claiming that bump stocks permit “continuous
firing initiated by a single action by the shooter. See
GOA v. Garland, Petition for Rehearing En Banc (May
10, 2021) at 1-2. This precipitous change was not
based on any new technical analysis or classification
letters issued by ATF’s firearm experts, but rather
came straight from the top, through a formal notice4

See GOA v. Garland, Exhibit 20.
http://lawand
freedom.com/wordpress/wp-content/uploads/2019/01/
Plaintiffs-Complaint-Exhibits.pdf.

11
and-comment rulemaking.
The agency’s volte-face was precipitated not by any
change made by Congress to the statutory language,
nor any new industry innovation or new technical
analysis. Rather, ATF was ordered point-blank by the
President of the United States to simply make bump
stocks into illegal machineguns, and the agency did
what it was told. Thus, even if there were a reason for
the court below to have “deferred” to ATF’s decision
here, it should have deferred to the agency’s
institutional firearm knowledge and expertise, instead
of deferring to the political agenda of a president.
That is not the rule of law, but rather “‘the King ...
creat[ing] an[] offence by ... proclamation, which was
not an offence before.’” Whitman v. United States, 574
U.S. 1003, 1004 (2014) (Scalia, J., respecting denial of
certiorari). An agency cannot “reverse its current view
180 degrees anytime based merely on the shift of
political winds and still prevail.” Gutierrez-Brizuela v.
Lynch, 834 F.3d 1142, 1152 (10th Cir. 2016) (Gorsuch,
J., concurring).
Of course, President Trump never claimed to
possess any technical expertise about firearms to
which any court should defer, and “[t]here is no
provision in the Constitution that authorizes the
President to enact, to amend, or to repeal statutes.”
Clinton v. City of N.Y., 524 U.S. 417, 438 (1998). Nor
may an agency “rewrit[e] ... unambiguous statutory
terms” to suit “bureaucratic policy goals.” Utility Air
Regulatory Group v. EPA, 573 U.S. 302, 325-26 (2014).
Rather, “[o]nly the people’s elected representatives in
Congress have the power to write new federal criminal

12
laws.” United States v. Davis, 139 S. Ct. 2319, 2323
(2019).
The President’s unilateral decision to declare
bump stocks to be machineguns conflicts with all prior
agency technical decisions on the subject by the
government’s subject matter experts. The court below
should not have been deferential, but rather highly
skeptical, of the agency’s purported “interpretation” of
a statute that had been politically forced upon it from
above, particularly when it completely reversed the
agency’s prior course, and the agency’s lawyers at
different times have claimed a lack of ambiguity in
both directions.
II. COURTS BELOW ARE USING CHEVRON AS
A CRUTCH TO AVOID PROPER JUDICIAL
INTERPRETATION OF STATUTORY
LANGUAGE.
Chevron deference has become a tool of avoidance
used by lower courts to shirk their responsibility to
“say what the law is.”5 As a simple illustration, one
need only survey the results of the three bump stock
cases that have been reviewed by the courts of appeals.
Of the thirteen appellate court judges who have
provided reasons for their respective decisions in the
bump stock cases (D.C. Circuit, 6th Circuit, and 10th
Circuit), eight have sided with the plaintiffs and
determined the ATF’s interpretation to be simply
wrong, while five have applied Chevron and deferred

5

Marbury v. Madison, 5 U.S. (1 Cranch) 137, 177 (1803).

13
to the ATF, despite ATF’s insistence that the statute
is unambiguous. Not a single appellate judge, whether
in the majority or in dissent, has stated that the ATF’s
interpretation is the “best” or the “correct”
understanding of the statute.
Judge Kethledge of the Sixth Circuit has opined
that “[t]here is nothing so liberating for a judge as the
discovery of an ambiguity.”
R. Kethledge,
“Ambiguities and Agency Cases: Reflections After
(Almost) Ten Years on the Bench,” 70 VAND L. REV. EN
BANC 315, 316 (2017). Indeed, both of the circuits that
have upheld the ATF’s Final Rule regarding bump
stocks reached that conclusion based on the premise
that the statute is entirely ambiguous, and that the
Final Rule offers merely a “permissible” reading of the
text. Guedes v. ATF at 32 (D.C. Cir. 2019); Aposhian
v. Barr, 958 F.3d 969, 989 (10th Cir. 2020). Yet Judge
Kethledge has advised that “[i]t matters very much ...
that judges work very hard to identify the best
objective meaning of the text before giving up and
declaring it ambiguous.” Ambiguities and Agency
Cases at 319.
The court below fell well short of applying all the
traditional tools of statutory construction to find the
“best” meaning of the statute, prematurely throwing in
the towel in favor of simply deferring to the recentlyreversed interpretation of an agency that claims no
ambiguity in the statute. The court below began by
softly and superficially characterizing the ATF’s
process as merely “revisiting” its multiple, prior
analyses of bump stocks, and then described the ATF’s
actions as a decision to “clarify” the terms

14
“automatically” and “single function of the trigger.”
Aposhian v. Barr at 976. The court below went on to
dismiss the government’s complete disclaimer that
Chevron should apply, as well as the district court’s
decision to set aside Chevron and attempt to find the
best meaning of the statute. Instead, the circuit court
decided that it should apply Chevron to answer a
largely irrelevant question that nobody had asked —
whether the ATF “acted within its authority” in
issuing the Final Rule.
Moving forward in total reliance on this brief and
perfunctory conclusion that Chevron applies, and
having implicitly excused itself from any notion of
attempting to discern the meaning of the statutory
language itself, the court below moved much more
freely in its opinion. With relatively little initial
discussion, the court below simply assumed that the
ATF’s rewriting of the statutory language from “single
function of the trigger” to “single pull of the trigger” is
a reasonable “interpretation” of the statute, permitting
the court to avoid recognizing the agency’s wholesale
revision of the statute.
Having decided that Chevron was the correct tool,
and having decided without further reflection that
“function” and “pull” can be synonymous if the ATF
says they are, the panel below went on to search for —
or perhaps more accurately stated, create — ambiguity
in the statutory language that none of the litigants
believe is ambiguous. See Aposhian v. Wilkinson, 989
F.3d 890, 892 (10th Cir. 2021) (Tymkovich, J.,
dissenting) (“the panel majority went looking for
ambiguity where there was none.”).

15
Ignoring the statutory requirement that a
machinegun must function “automatically ... by a
single function of the trigger,” the court below required
only that it fire “automatically” — to be determined in
isolation by whatever a particular dictionary says the
word “automatically” means generically. App. 28a.
Divorced from its statutory context, the panel was free
to declare bump stocks to be machineguns even though
they require far more “human involvement” than a
“single function of the trigger” in order to operate.
Simply put, the conclusion by the court below that
the statutory definition of “machinegun” is ambiguous
— without conducting any serious analysis of the text
or the ATF’s alteration thereof — demonstrates at
least the need for greater judicial restraint in applying
Chevron deference. Firearms equipped with bump
stocks require far more variable human input,
technique, and guidance than a “single function of the
trigger” in order to fire repeatedly, and they do not
operate “automatically ... by a single function of the
trigger,” because they require the trigger to function
each time a round is fired. The willingness of courts to
defer quickly and readily to agency “interpretations”
that contradict the plain text results in plainly
erroneous decisions such as that below, wherein
statutory terms with clear meaning (should courts care
to find it) are summarily given the stamp of
“ambiguity” in order to empower judges to avoid being
required to determine the best meaning of a statute.

16
CONCLUSION
For the reasons stated above, the Petition for a
Writ of Certiorari should be granted.
Respectfully submitted,
DAVID BROWNE
SPIRO & BROWNE, PLC
6802 Paragon Place
Suite 410
Richmond, VA 23230
Co-counsel for
Amici Curiae
JOHN I. HARRIS, III
SCHULMAN, LEROY &
BENNETT, PC
3310 West End Avenue
Suite 460
Nashville, Tennessee 37203
Co-counsel for Amicus Curiae
Tennessee Firearms Assn.

ROBERT J. OLSON*
WILLIAM J. OLSON
JEREMIAH L. MORGAN
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
*Counsel of Record
Attorneys for Amici Curiae
September 3, 2021

